REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
           PACIFIC RIM REGION
    REPORT NUMBER A050009/T/9/Z05020
              MAY 18, 2005
                       Field Audit Office, Pacific Rim Region (JA-9)
                             450 Golden Gate Avenue, Room 7-5262
                                 San Francisco, CA 94102-3434


Date:               May 18, 2005

Reply to
Attn of:            Audit Manager, San Francisco Field Audit Office (JA-9)

Subject:            Review of Federal Technology Service’s
                    Client Support Center Controls and Testing of Controls
                    Pacific Rim Region
                    Report Number A050009/T/9/Z05020

To:                 Peter G. Stamison
                    Regional Administrator (9A)

                    Barbara L. Shelton
                    Acting Commissioner, Federal Technology Service (T)


This report presents the results of the Office of Inspector General’s audit of the Federal
Technology Service (FTS) Client Support Center (CSC) in the Pacific Rim Region
(Region 9). The Ronald W. Reagan National Defense Authorization Act for Fiscal Year
2005 (Public Law 108-375) directed the Inspectors General of the General Services
Administration and the Department of Defense to jointly perform a review of each FTS
CSC and determine whether each CSC is compliant, not compliant, or not compliant but
making significant progress with Defense procurement requirements.

Objectives, Scope and Methodology

To review the adequacy of policies, procedures, and internal controls in each CSC, we
analyzed a random sample of procurement actions executed between August 1, 2004
and October 31, 2004. We also analyzed a judgmental sample of existing orders and
the steps taken to remediate any past problems in these existing orders. For the Pacific
Rim CSC, our sample included 16 new awards and four existing orders, valued at
$9 million and $544 million, respectively.      The audit was conducted between
October 2004 and March 2005, in accordance with generally accepted Government
auditing standards.
Results of Audit

We determined the Region 9 CSC to be not compliant but making significant progress.
Region 9 has implemented national controls identified in the Administrator’s Get It Right
Plan, and has improved its overall contracting practices, compared with our past audit
findings. For example, we did not find any instances of non-compliance with the
competition requirements of Section 803 of the National Defense Authorization Act for FY
2002. While we did find seven new orders that had procurement compliance deficiencies,
none of the deficiencies resulted in potential financial impact. Our review of existing
orders revealed three orders with prior procurement deficiencies. The CSC had not made
adequate remediation progress for two of the three existing orders with prior deficiencies.
For the third order, FTS issued a modification with inadequate price support. In addition,
the DOD OIG identified a significant funding issue for one task order.

As directed by Public Law 108-375, because the CSC is not fully compliant, we are
required to perform a subsequent audit of CSC contracting practices by March 2006 to
determine whether the CSC has become compliant.

Procurement Compliance Deficiencies

We identified seven new orders with various procurement compliance deficiencies, of
which none had a potential financial impact. Examples included:

   •	 A $855,327 8(a) set-aside order for servers and computer component equipment
      and a $487,150 competitively bid award for commodities had no acquisition plans.

   •	 A $825,397 GSA Schedule 70 order for computer components did not include a
      signed Memorandum of Understanding between GSA and the client agency;

Existing Orders Procurement Deficiencies

For three task orders, we determined that remediation efforts and/or price support were
inadequate. The first order with a potential value of $250 million for the upgrade of
information technology infrastructure had problems at award that included inadequate
price support and no legal review. In the current review period, we noted inadequate price
support for a $1.9 million modification to this order. The second order for $58 million was
to provide call center support, which constituted an inappropriate use of the IT fund. In
addition, an inadequate best value determination had been made. Further, there was
inadequate price support for the other direct costs (ODCs) associated with this order,
which comprised 36 percent of the $58 million total order value. Also, the CSC had not
documented a justification for use of a time-and-materials type contract. At the time of
our review the CSC had not initiated remediation efforts for these task orders.

For the third order with prior deficiencies, the CSC had remediation plans in place, but the
plans had not yet been fully implemented at the time of our review.            Deficiencies
included: (i) no support for fair and reasonable pricing for the ODCs originally proposed
                                           2

(76 percent of the total $158 million task order value); (ii) no justification for use of a Time
and Materials task order, (iii) an inadequate Statement of Work; (iv) use of incorrect
contract vehicle; (v) improper period of performance extensions; and (vi) no quality
assurance plans. In addition, the task order did not have price support for the two of the
three modifications issued during our review period.

Significant Funding Issue

The DOD OIG identified a significant funding issue associated with a $213,000 task order
for printer supplies purchased at the end of FY 2004. The DOD OIG determined that
there was no bonafide need. The procurement was made with FY 2004 funds in FY 2004,
but the actual supplies were needed in FY 2005. Therefore, FY 2005 funds should have
been used for this procurement.

Conclusion

While not fully compliant, we found that the Pacific Rim Region CSC has made significant
progress in implementing controls to ensure compliance with procurement regulations.
The CSC has implemented national controls identified in the Administrator’s Get It Right
Plan and improved its overall contracting practices. Although we found procurement
compliance deficiencies in seven new orders, none of the deficiencies resulted in
potential financial impact. We also found problems with three existing orders, including
two with prior procurement deficiencies where the CSC had not made adequate
remediation progress. In addition, we noted that the CSC did not have pricing support for
modification(s) processed during the review period for two of the three existing task
orders.

As stated in the January 2004 OIG report on the FTS CSCs, we believe that steps to
remedy the CSC procurement problems require a comprehensive, broad-based strategy
that focuses on the structure, operations and mission of FTS as well as the control
environment. Based on the comprehensive recommendations contained in that report, no
further overall recommendations are deemed necessary at this time.

Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. With the exception of one finding, the
Regional Administrator was in general agreement with the findings of the report in his
response dated May 10, 2005.




                                               3

4

P 2 of 3                         ATTACHMENT 1
           MANAGEMENT RESPONSE
P 3 of 3                         ATTACHMENT 1
           MANAGEMENT RESPONSE
                                                         ATTACHMENT 2

                REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                    CLIENT SUPPORT CENTER CONTROLS
                        AND TESTING OF CONTROLS
                            PACIFIC RIM REGION
                    REPORT NUMBER A050009/T/9/Z05020


                              REPORT DISTRIBUTION

                                                               COPIES

Acting Commissioner, Federal Technology Service (T)              3

Regional Administrator (9A)                                      3

Assistant Inspector General for Auditing (JA)                    1

Assistant Inspector General for Investigations (JI)              1
